<html>
<title> - RESPONSIBLY AND PROFESSIONALLY INVIGORATING DEVELOPMENT (RAPID) ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     RESPONSIBLY AND PROFESSIONALLY
                        INVIGORATING DEVELOPMENT
                          (RAPID) ACT OF 2013

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           REGULATORY REFORM,
                      COMMERCIAL AND ANTITRUST LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2641

                               __________

                             JULY 11, 2013

                               __________

                           Serial No. 113-42

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-852 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, FLORIDA
JASON T. SMITH, Missouri

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Regulatory Reform, Commercial and Antitrust Law

                   SPENCER BACHUS, Alabama, Chairman

                 BLAKE FARENTHOLD, Texas, Vice-Chairman

DARRELL E. ISSA, California          STEVE COHEN, Tennessee
TOM MARINO, Pennsylvania             HENRY C. ``HANK'' JOHNSON, Jr.,
GEORGE HOLDING, North Carolina         Georgia
DOUG COLLINS, Georgia                SUZAN DelBENE, Washington
JASON T. SMITH, Missouri             JOE GARCIA, Florida
                                     HAKEEM JEFFRIES, New York

                      Daniel Flores, Chief Counsel

                      James Park, Minority Counsel

















                            C O N T E N T S

                              ----------                              

                             JULY 11, 2013

                                                                   Page

                                THE BILL

H.R. 2641, the ``Responsibly and Professionally Invigorating 
  Development (RAPID) Act of 2013''..............................     4

                           OPENING STATEMENTS

The Honorable Spencer Bachus, a Representative in Congress from 
  the State of Alabama, and Chairman, Subcommittee on Regulatory 
  Reform, Commercial and Antitrust Law...........................     1
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Ranking Member, Subcommittee on 
  Regulatory Reform, Commercial and Antitrust Law................    36
The Honorable Tom Marino, a Representative in Congress from the 
  State of Pennsylvania, and Member, Subcommittee on Regulatory 
  Reform, Commercial and Antitrust Law...........................    38

                               WITNESSES

William K. Kovacs, Senior Vice President, Environment, Technology 
  & Regulatory Affairs, U.S. Chamber of Commerce
  Oral Testimony.................................................    43
  Prepared Statement.............................................    45
Dennis J. Duffy, Vice President and Counsel, Cape Wind 
  Associates, LLC
  Oral Testimony.................................................    61
  Prepared Statement.............................................    63
Scott Slesinger, Legislative Director, Natural Resources Defense 
  Council
  Oral Testimony.................................................    71
  Prepared Statement.............................................    73
Nick Ivanoff, President & CEO, Ammann & Whitney, on behalf of 
  American Road & Transportation Builders Association (ARTBA)
  Oral Testimony.................................................    96
  Prepared Statement.............................................    98

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    40
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    41
Material submitted by the Honorable Hakeem Jeffries, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on Regulatory Reform, Commercial and 
  Antitrust Law..................................................   116
Material submitted by the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Member, Subcommittee on Regulatory Reform, Commercial and 
  Antitrust Law..................................................   178

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from William K. Kovacs, 
  Senior Vice President, Environment, Technology & Regulatory 
  Affairs, U.S. Chamber of Commerce..............................   188
Response to Questions for the Record from Dennis J. Duffy, Vice 
  President and Counsel, Cape Wind Associates, LLC...............   191
Response to Questions for the Record from Scott Slesinger, 
  Legislative Director, Natural Resources Defense Council........   192

 
RESPONSIBLY AND PROFESSIONALLY INVIGORATING DEVELOPMENT (RAPID) ACT OF 
                                  2013

                              ----------                              


                        THURSDAY, JULY 11, 2013

                       House of Representatives,

                  Subcommittee on Regulatory Reform, 
                      Commercial and Antitrust Law

                      Committee on the Judiciary,

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2141, Rayburn Office Building, the Honorable Spencer 
Bachus (Chairman of the Subcommittee) presiding.
    Present: Representatives Bachus, Goodlatte, Marino, Cohen, 
Johnson, DelBene, and Jeffries.
    Staff present: (Majority) Daniel Flores, Chief Counsel; 
Ashley Lewis, Clerk; Jaclyn Louis, Legislative Director to Mr. 
Marino; Sarah Vanderwood, Legislative Assistant to Mr. Holding; 
and (Minority) James Park, Minority Counsel.
    Mr. Bachus. Good morning. The Subcommittee on Regulatory 
Reform, Commercial and Antitrust Law hearing will come to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    We welcome all our witnesses today.
    We are going to have votes on the floor, which we normally 
do not have on a Thursday, but the Farm Bill is back. So we do 
expect to have some interruptions, which we apologize in 
advance for.
    Our format is for opening statements of Members and then 
the panel. So we will proceed with that.
    And at this time, I would like to recognize Mr. Marino, the 
gentleman from Pennsylvania, who is the sponsor of the bill, 
for his opening statement.
    Mr. Marino. I would like to reserve my time.
    Mr. Bachus. Let me give my opening statement, and then we 
will go back and have the sponsor give his opening statement.
    Summer is what we usually know as a high time for outdoor 
construction projects. In fact, it is when you sometimes hear 
complaints from some people that there is too much construction 
going on. I am not sure I have heard that anytime lately.
    But especially when it comes to roads, each of these 
projects is creating jobs, improving safety, and modernizing 
our transportation system. And let me add as an aside I am also 
one of those who believes we need to be investing more in our 
infrastructure.
    Unfortunately, there is a big roadblock out there to 
completing all the work that we desperately need to have done 
on our highways and roads and bridges. That is an inexcusable 
slow process imposed by Washington on the permitting of new 
construction projects. Under the National Environmental Policy 
Act, Federal agencies must review proposed new projects for 
environmental impacts and that is fine. But it is unacceptable 
that the progress has grown to one that drags out for years.
    Just this past May we heard that President Obama expressed 
similar concerns during a speech in Baltimore, and he said, I 
quote, ``One of the problems we have had in the past is that 
something--sometimes it takes too long to get projects off the 
ground. There are all these permits and red tape and planning 
and this and that, and some of it is important to do but we 
could do it faster.''
    Quite frankly, it was the original intent that we do it 
faster. When NEPA was in its infancy, the Council of 
Environmental Quality promised that under its regulations even 
large, complex energy projects would require only about 12 
months for the completion of the entire process. And that is 
the environmental impact statement. And now, instead, it 
sometimes seems incredibly difficult to get permission in a 
timely manner for even a small project. And when it comes to 
large projects, such as the construction of the Northern 
Beltline in the Birmingham area that I represent, the 
challenges are even greater.
    There are some who would argue that current economic 
reviews is working well and should not be changed. We have a 
witness today from the National Resources Defense Council who 
will tell us that if the review process is shortened and 
streamlined, all important environmental factors might not be 
taken into account. And I do not begrudge them for that 
position, but I find it ironic that a witness from the same 
organization testified here Tuesday that we should not take 
extra time when it comes to assessing the adverse job impacts 
of Federal agency decisions. So they were here 2 days ago 
saying we should get the rules and regs out and not spend time 
seeing whether there is an impact on jobs. So what needed to be 
faster on Tuesday needs to slow up on Thursday I guess.
    The legislation we are considering today, the RAPID Act, 
would streamline the permitting process in a way that would 
still allow all appropriate environmental reviews to be done. 
It would reduce the time it takes to review new construction 
projects and ensure that the permitting process is not 
endlessly held up in the courts.
    Let me thank Mr. Marino for re-introducing this 
legislation. I am proud to be an original cosponsor of his 
legislation.
    This legislation is modeled on the successful permitting 
streamlining provisions of the recent bipartisan SAFETEA-LU and 
MAP-21 transportation bills. Both of those transportation 
reauthorization bills had my strong support and the support of 
most Judiciary Committee Members on both sides of the aisle. 
Under SAFETEA-LU alone, the time for completing environmental 
impact statements has been cut nearly in half, but further 
reforms are needed and the RAPID Act is a further step forward.
    Let me conclude by saying one thing we all agree on, that 
we need more jobs. Construction jobs can be some of the best 
paying jobs out there, and when you talk about young people, a 
summer construction job can be a way to help pay for college. 
It was for me. I worked every summer for a construction company 
as I went through Auburn and then 1 year at Alabama Law School. 
To me, this is a winning piece of legislation that will create 
jobs, allow a lot of students to help pay for their educations, 
and others to feed their families and allow us to get on with 
the urgent task of modernizing our Nation's crumbling 
infrastructure, whether it is water, sewer, or highways.
    And with that, I yield to the Ranking Member of the 
Subcommittee, Mr. Cohen, who I think is all excited about this 
bill too.
    [The bill, H.R. 2641, follows]:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________
    Mr. Cohen. War Eagle.
    Thank you, Mr. Chairman.
    I am excited. Not really.
    The RAPID Act, otherwise known as the Responsibly and 
Professional Invigorating Development Act of 2013, creates a 
new subchapter of the APA to prescribe how environmental 
reviews required by NEPA, the National Environmental Policy 
Act, should be conducted for Federal construction projects. I 
do have sympathy that we want to get projects like this 
completed quickly, but I do not want to bypass safety concerns. 
The bill imposes deadlines for agency permit approvals, once 
the NEPA review process is complete, and would deem approved 
any application for a permit when an agency does not meet those 
deadlines.
    President Nixon signed NEPA into law, that great liberal, 
on January 1, 1970, which passed the Congress with bipartisan 
support. Among other things, NEPA requires that for proposals 
for legislation and other major Federal actions significantly 
affecting the quality of the human environment, Federal 
agencies must prepare a detailed environmental review. NEPA 
also created the Council on Environmental Quality which issued 
regulations and guidance implementing NEPA. NEPA's purpose is 
to provide a framework for wide-ranging input from all affected 
interests when a Federal agency conducts an environmental 
review of a proposed project.
    I certainly appreciate Mr. Marino, my colleague, who 
reached out to me on the floor whether changes could be made to 
the RAPID Act which could earn my support and asked for my 
support on the floor. I appreciated that, and I immediately 
went to staff and sought out the possibly that I could do so. 
And I do hope we can work together on future legislation.
    But as this specific act, I continue to have concerns about 
the fundamental structure of the bill based on our previous 
consideration of this bill in the last Congress. And I hate to 
see the record of Richard Nixon, which has been tarnished by 
himself over the years, tarnished any more by this Congress.
    As an initial matter, it is unclear to me why all of the 
changes to our codifications of NEPA practice contemplated in 
the RAPID Act belong in the APA. If the bill's proponents would 
like to amend or add to NEPA's environmental requirements, go 
ahead and amend NEPA. I am very wary of using the APA as a back 
door way to amend other statutes or substantive law, 
particularly those over which this Committee seems to lack 
jurisdiction or substantive expertise, not that we do not have 
expertise on other subjects, including the SEC, not to be 
confused with the Securities and Exchange Commission. But we do 
not with NEPA.
    As I said earlier this week and have said many times 
before, the APA is our administrative constitution. Like the 
actual Constitution I would be very concerned about changing 
it, only in most important times. Using the APA to amend other 
statutes or substantive law simply by adding subchapters is not 
the purpose or function of the APA and we ought to guard 
against this temptation.
    Another overreaching concern that I have is the RAPID Act 
may be aimed at the wrong target. It is my understanding the 
RAPID Act's purpose is to reduce delays in permitting or 
project approval purportedly caused by the environmental review 
process. As we learned in testimony from Dinah Bear who served 
for 24 years under Republican and Democratic administrations as 
General Counsel for the White House Council on Environmental 
Quality, which oversees NEPA's implementation, most of the 
delays in the process are not the result of NEPA. Specifically 
Ms. Bear testified the principal causes of unjustified delay in 
implementing the NEPA review process are inadequate agency 
resources, inadequate training, inadequate leadership in 
implementing conflict dispute resolution mechanisms, and lack 
of coordination between Federal agencies and agencies at the 
county, tribal, and State levels, including and particularly 
coordinated single environmental review processes in cases 
where governmental agencies at other levels have environmental 
review procedures. Causes of justified delay include the 
complexity of the proposed projects and associated impacts of 
them, changes in the proposed project, the extent and nature of 
public controversy, changes in budget and policy direction, 
including directional oversight and new information.
    To the extent that RAPID Act's proponents would like to 
address unjustified causes of delay, their attention might be 
better focused on addressing inadequate agency resources which, 
I am sure, are being cut with the sequester, and other sources 
of such delay that Ms. Bear outlined.
    And to the extent that any delay in the environmental 
review is justified, it would be inappropriate to short-circuit 
the existing NEPA process.
    Another broad concern with the bill is that it would 
establish a separate environmental review process for Federal 
construction projects. Here it is important to note that NEPA 
applies to a broad range of Federal projects, not just 
construction. For instance, NEPA can apply to hunting permits, 
land management plans, hunting permits, guns--it might affect 
guns--land management plans, military base realignment and 
closure activities, and trout ESUs. The RAPID Act, however, 
would only apply to a subset of the Federal projects, namely 
construction activities, potentially adding further confusion 
as to the fact that there is no definition of construction 
activities in the bill. This could mean two different 
environmental review processes would apply in the same project.
    For example, the construction of a new nuclear reactor 
could be a construction activity in the building phase, but may 
not be with respect to the transportation of new or spent 
nuclear fuel or any licensing required to operate a new 
reactor. It is quite possible that two different review 
processes could apply on the same project as a result.
    These are some of the concerns, and there are many about 
this bill that Ms. Bear raised last year and that Mr. Slesinger 
will discuss in greater detail today.
    In raising criticisms of the RAPID Act, I do not mean to 
suggest we cannot seek common ground in some limited ways to 
make the rulemaking process better for everyone. That is what 
we should be doing in this Committee, in this Congress, and in 
this world. But we do not seem to be doing that.
    As with many of the other regulatory bills we have 
considered so far, this bill makes a lot of sweeping changes to 
current law, in this case substantive changes to a statute over 
which we are not the Committee of jurisdiction, with which I 
cannot be comfortable. And therefore, I cannot support the 
bill.
    I thank Mr. Marino very much for his concept, his reaching 
out to me, and hope that we could find and can find--and with 
the distinguished Chairman, who went to both Alabama and 
Auburn, we can find common ground, and I am sure we will.
    And I thank our witnesses. I look forward to their 
testimony.
    And further deponent sayeth not.
    I yield back the remainder of my time.
    Mr. Bachus. Thank you very much. We appreciate those 
conciliatory remarks, Mr. Cohen.
    And with that, we will recognize the sponsor of the 
legislation, Mr. Marino, for his opening statement.
    Mr. Marino. Thank you, Chairman.
    And like President Nixon, another great liberal, my good 
friend, Mr. Cohen, who I know down somewhere there is some 
conservatism--I have traveled with him and I have sensed that--
I am sure that we will be able to reach an agreement on this 
issue.
    Let me preface by saying I live out in the country in rural 
Pennsylvania. I am on about 10 acres. I get my water from a 
well. I enjoy seeing the bear and the deer walk through my 
front yard every day. I like going outside and breathing the 
fresh air and making sure that my children and my land and my 
constituents are protected. So there is no one, I don't think, 
who has any greater passion for making sure that we have clean 
air, clean water, and that our children are protected.
    But with that, the American historical record has always 
been, ``The worse the recession, the stronger the recovery.'' 
However, although the National Bureau of Economic Research 
states the recession ended 4 years ago, I think we can agree 
the recovery has been anything but strong. Besides losing 
paychecks, millions of Americans have lost the dignity and 
satisfaction that comes from earning a living and supporting a 
family. No government benefit can compensate a person for that.
    Americans are ready to work and employers are eager to 
create jobs if government could just get out of the way. As we 
will hear from the witnesses today, the job opportunities are 
here on U.S. soil.
    One of our witnesses today describes the U.S. Chamber's 
study, Project No Project, which looked at the potential 
economic impact of permitting challenges faced by U.S. 
companies attempting to propose new energy projects. For 
example, Penn-Mar Ethanol attempted to construct an ethanol 
producing plant in Conoy Township, Pennsylvania. Neighboring 
Hellam Township sent a letter to the Conoy Township board of 
supervisors objecting to the ethanol plant. Hellam Township's 
objections included environmental risk to the surrounding area 
and a ``risk of causing the beautiful area surrounding the 
Susquehanna River to become an undesirable sight.'' Is that 
what we mean when we talk about negative environmental impact? 
An obstructed scenic view?
    Certainly job creators cannot be effective in creating jobs 
under such an over-expansive, extreme regime.
    After hearing about the numerous projects currently 
awaiting approval in the testimony today, many of us might be 
asking ourselves ``if the workers are here and the jobs are 
here, then what is keeping American workers idle.''
    Well, I will tell you. It is our outdated, burdensome, 
convoluted Federal permitting process that has become a hotbed 
for the environmental extremists looking to hold up 
infrastructure building and growth that our country so 
desperately needs.
    The National Environmental Policy Act of 1969 serves worthy 
goals which should be preserved. Federal agencies should have 
an awareness of how their actions affect the environment, and 
this decision-making process should be transparent to the 
public. It seems the Administration, the President's Council on 
Jobs and Competitiveness, and legislation adopted by our strong 
bipartisan majority in our 109th and 112th Congresses all 
recognize that an overly burdensome and lengthy environmental 
review and permitting process undermines economic growth.
    My bill, the RAPID Act of 2013, aims to restore the balance 
between thorough analysis and timely decision-making in the 
Federal permitting process. It does not seek to force agencies 
to approve more or fewer permit applications. It simply says be 
transparent. Put one agency in charge. Follow a rational--a 
rational--process and approve or deny the project in a 
reasonable amount of time. Then get out of the way.
    Job creators and workers alike deserve to know that a fair 
decision will be made by a date certain. When a project gets 
stuck in limbo, companies spend their resources on lawyers 
instead of using their budget to hire new employees.
    The RAPID Act is modeled on existing National Environmental 
Policy Act, NEPA, regulations and guidance, including guidance 
from this Administration issued to the agency heads, as well as 
recommendations from the President's own Job Council and 
regulatory reforms adopted with broad bipartisan support in the 
109th and 112th bodies of Congress. Americans are ready to get 
back to work. The RAPID Act of 2013 will remove the red tape 
and allow job creators to take projects off the drawing board 
and on to the work site.
    In closing, I want to thank my cosponsors, Chairman Bachus, 
Mr. Coble, Mr. Smith, Mr. Franks, and Mr. Amodei, for their 
support. Thanks especially to Mr. Bachus for calling this 
hearing and giving us the opportunity to bring this issue to 
light.
    I would also like to thank our witnesses for attending and 
sharing their valuable expertise with us. I look forward to a 
lively debate.
    And I reserve the balance of my time. Thank you.
    Mr. Bachus. Thank you, Mr. Marino.
    At this time, I would ask unanimous consent to introduce 
for the record the statements of both the Chairman of the full 
Committee and the Ranking Member, Congressman Goodlatte and 
Congressman Conyers, into the record.
    [The prepared statement of Mr. Goodlatte follows:]
Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary
    Over 4 years into nominal recovery, America's economy remains far 
too weak, and America's workers have far too few jobs.
    The June jobs report showed an increase of 240,000 in the number of 
discouraged workers--those who have simply quit looking for a job out 
of frustration or despair. The number of people working part-time--but 
who really want full-time work--passed 8.2 million. That represents a 
jump of 322,000 in just one month.
    Worst of all, the truest measure of unemployment--the rate that 
includes both discouraged workers and those who cannot find a full-time 
job--continues to exceed 20 million Americans. And that rate rose from 
13.8% back to 14.3% in June.
    In the wake of this bad news, I cannot thank Mr. Marino enough for 
reintroducing the RAPID Act. This legislation represents one of the 
most important things Congress can do to stimulate the job creation 
that America's workers desperately need.
    The federal government's outdated and overly burdensome 
environmental review process keeps jobs and workers waiting for 
approval from Washington's government agencies for far too long.
    A recent study by the U.S. Chamber of Commerce identified 351 
proposed energy projects that, if approved, could generate up to two 
million jobs annually.
    Yet these projects and others like them are held up by an 
environmental review process that takes years, sometimes more than a 
decade, to reach a conclusion. The National Environmental Policy Act 
(NEPA) of 1969, under which this process takes place, serves important 
goals, which should be preserved. But the NEPA process today does not 
resemble what its authors envisioned.
    Because there are no mandatory deadlines for NEPA review, 
investment capital is tied up indefinitely or until it finally goes 
away, while the bureaucratic review process grinds on. A 2008 study 
found that federal agencies take nearly 3\1/2\ years on average to 
complete an environmental impact statement.
    Incredibly, in the midst of the Nation's historic economic 
difficulties, that length of time is increasing.
    In addition, agencies can deny permit applications based on ``new 
information'' not to be found in the environmental study documents--and 
perhaps provided by a special interest group that opposes the project 
altogether.
    Making matters worse, after bureaucratic review is finished, a 
whole new cycle of frustration begins. That is the cycle of litigation 
that sprawls out under the 6-year statute of limitations applicable to 
permit challenges. The fear of a lawsuit filed up to 6 years after a 
permit is granted, alleging that some portion of environmental review 
was defective, further discourages projects from moving forward.
    The Empire State Building, the Hoover Dam, the Pentagon, and even 
the New Jersey Turnpike were built in less than 6 years. Surely 
litigants can prepare and file lawsuits in less time as well.
    Navigating this endless review-and-litigation process can cost job 
creators millions of dollars when they need to hire consultants and 
lawyers. But the cost to the economy is exponentially greater.
    The key is finding the right balance between economic progress and 
the proper level of analysis. The RAPID Act strikes this balance. It 
does not force agencies to approve or deny any projects. It simply 
ensures that the process agencies use to make permit decisions--and the 
timeline for subsequent litigation--are transparent, logical and 
efficient.
    To do that, the RAPID Act draws upon established definitions and 
concepts from existing NEPA regulations. It also draws on common-sense 
suggestions from across the political spectrum--including from the 
President's Jobs Council and the Administration's Council on 
Environmental Quality.
    In many respects, the bill is modeled on the permit streamlining 
sections of Congress' SAFETEA-LU and MAP-21 transportation legislation, 
which commanded bipartisan support. A study by the Federal Highway 
Administration found that this legislation has cut the time for 
completing an environmental impact statement nearly in half.
    I urge my colleagues to support the RAPID Act and cut down the time 
it takes America's workers to see a real Jobs Recovery.
                               __________

    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    The title of bill that is the subject of today's hearing, namely--
the ``Responsibly and Professionally Invigorating Development Act of 
2013''--is unfortunately very misleading.
    Rather than effectuating real reforms to the process by which 
federal agencies undertake environmental impact reviews as required by 
the National Environmental Policy Act, or NEPA, this legislation will 
actually result in making this process less responsible, less 
professional, and less accountable.
    Worse yet, this measure could jeopardize public health and safety 
by prioritizing speed over meaningful analysis.
    To begin with, the bill--under the guise of streamlining the 
approval process--forecloses potentially critical input from federal, 
state and local agencies and other interested parties for construction 
projects that are federally-funded or that require federal approval.
    As a result, this measure could allow projects to proceed that put 
public health and safety at risk.
    For example, as Mr. Slesinger aptly explains in his prepared 
testimony for today's hearing, this bill could effectively prevent the 
Nuclear Regulatory Commission from exercising its licensing authority 
pertaining to nuclear power reactors, waste management sites, and 
nuclear waste disposal facilities.
    This measure could even allow such projects to be approved before 
the safety review is completed.
    This failing of the bill, along with many others, explains why the 
Administration and the President's Council on Environmental Quality, 
along with 25 respected environmental groups, including the Audubon 
Society, League of Conservation Voters, Natural Resources Defense 
Council, Sierra Club, and The Wilderness Society, vigorously opposed 
this bill's predecessor in the last Congress.
    In issuing its veto threat regarding that prior measure, the 
Administration noted, for example, that the bill ``would create 
excessively complex permitting processes that would hamper economic 
growth.''
    Another concern that I have with this bill--like other measures 
that we have considered--is that it is a solution in search of a 
problem.
    And, that is just not my opinion. The nonpartisan Congressional 
Research Service issued a report last year stating that the primary 
source of approval delays for construction projects ``are more often 
tied to local/state and project-specific factors, primarily local/state 
agency priorities, project funding levels, local opposition to a 
project, project complexity, or late changes in project scope.''
    CRS further notes that project delays based on environmental 
requirements stem not from NEPA, but from ``laws other than NEPA.''
    So I have to ask, why do we need a bill such as the so-called RAPID 
Act that will undoubtedly make the process less clear and less 
protective of public health and safety?
    My final major concern with this bill is that it is a thinly 
disguised effort to shift power away from governmental agencies that 
are accountable to the public and to instead give greater control to 
politically unaccountable industry so that it can run roughshod over 
everyone else.
    This general tack is highlighted by a number of the bill's 
provisions.
    For example, the bill limits the opportunity for public 
participation and imposes deadlines that may be unrealistic under 
certain circumstances.
    In addition, the bill creates a separate, but only partly parallel 
environmental review process for construction projects that will only 
cause confusion, delay, and litigation.
    As I noted at the outset, the changes to the NEPA review process 
contemplated by this measure apply only to proposed federal 
construction projects.
    NEPA, however, applies to a broad panoply of federal actions, 
including fishing, hunting, and grazing permits, land management plans, 
Base Realignment and Closure activities, and treaties.
    In contrast, the bill applies only to a subset of federal 
activities. In fact, even this subset is ill-defined under the measure 
as it fails to define what actually would constitute a construction 
project.
    This could lead to two different environmental review processes for 
the same project. For instance, the bill's requirements would apply to 
the construction of a nuclear reactor, but not to its decommissioning 
or to the transportation and storage of its spent fuel.
    Rather than streamlining the NEPA process, this bill only adds 
complication, confusion, and potential litigation to the process.
    But, more importantly, this bill is yet another effort by my 
friends on the other side of the aisle to undermine regulatory 
protections.
    As with all the other bills, this measure is a thinly disguised 
effort to hobble the ability of federal agencies to be able to do the 
work that we in Congress have assigned them to do.
                               __________

    Mr. Bachus. And with that, we have a very distinguished 
group of panelists, and I would like to start by introducing 
them to the Committee.
    Bill Kovacs, who is no stranger to our Committee, provides 
the overall direction, strategy, and management for the 
Environmental, Technological, and Regulatory Affairs Division 
of the U.S. Chamber. Since he joined the Chamber in March 1998, 
he has transformed a small division concentrating on a handful 
of issues in committee meetings into one of the most 
significant in the organization. His division initiates and 
leads national issue campaigns on energy legislation, complex 
environmental rulemaking, telecommunications reform, emerging 
technologies, and applying sound science to Federal regulatory 
processes.
    Mr. Kovacs previously served as chief counsel and staff 
director with the House Subcommittee on Transportation and 
Commerce.
    He earned his J.D. from Ohio State University College of 
Law and bachelor of science degree from the University of 
Scranton, magna cum laude.
    Welcome, Mr. Kovacs.
    Mr. Dennis Duffy, we welcome you. He is the Vice President 
of Energy Management, Incorporated, a leading developer of 
traditional renewable energy projects. Prior to joining EMI, 
Mr. Duffy was a partner of the law firm of Partridge, Snow & 
Hahn, and he was chairman of the firm's public utilities 
practice group. Where? Was that in Boston?
    Mr. Duffy. Boston, yes, sir.
    Mr. Bachus. Mr. Duffy served as special counsel to the 
Rhode Island Energy Facilitates siting board and the Rhode 
Island Partnership for Science and Technology. He was also a 
member of the Northeast Roundtable of the NEPA Task Force.
    He has been an adjunct professor of law at Boston College 
Law School since 2010.
    He received his B.A. in history from the University of 
Rhode Island and his J.D. from Columbia University Law School.
    Mr. Scott Slesinger is the Legislative Director of the 
National Resources Defense Council, and we welcome you back to 
the Committee again. In his capacity, he works with the NRDC 
staff to develop strategies for advancing environmental 
legislation.
    Prior to joining NRDC, Mr. Slesinger served as Vice 
President for Governmental Affairs at the Environmental 
Technology Council, an industry trade association that 
represents companies that recycle, destroy, or dispose of 
hazardous waste.
    Mr. Slesinger also worked at EPA's Office of Legislative 
Analysis. Additionally, he served in the offices of 
Representative Henry Nowak of New York and the late Senator 
Frank Lautenberg of New Jersey. So I am sure you were saddened 
by his death, but we lost a great statesman.
    He earned his undergraduate and law degrees at the State 
University of Buffalo. And you did not freeze to death while 
you were getting those degrees.
    Mr. Slesinger. No. It is getting warmer.
    Mr. Bachus. Is it? [Laughter.]
    It is.
    Mr. Nick Ivanoff is President and CEO of Ammann & Whitney, 
an architecture and engineering firm headquartered in New York 
City. In this capacity, Mr. Ivanoff has technical, marketing, 
administrative, and financial responsibility for company 
operations worldwide.
    Mr. Ivanoff is currently First Vice Chairman and Executive 
Committee Member serving on the board of directors and Chairman 
of the International Affairs Advisory Council for the American 
Road & Transportation Builders Association, a trade association 
with more than 5,000 members which advocates strong investment 
in transportation infrastructure.
    Now, I will tell you just an aside. Chairman Bill Shuster 
gave a speech yesterday morning calling for greater 
infrastructure spending across the board. And if you travel to 
countries like China, Singapore, or anywhere, you come back 
here and you realize that we are behind. You cannot have a 
leading Nation in the world with a third world infrastructure.
    Mr. Ivanoff is a registered professional engineer and 
professional planner with 39 years of experience. He received 
his B.S. in civil engineering and M.S. in traffic engineering 
and transportation planning from the Polytechnic Institute of 
Brooklyn.
    We welcome you.
    And with that, Mr. Kovacs, we will proceed from my left to 
right with your opening statements in 5 or so minutes. We do 
not stop people exactly on the clock. So if you have got 6 
minutes of things you need to say, say them.

    TESTIMONY OF WILLIAM K. KOVACS, SENIOR VICE PRESIDENT, 
 ENVIRONMENT, TECHNOLOGY & REGULATORY AFFAIRS, U.S. CHAMBER OF 
                            COMMERCE

    Mr. Kovacs. Mr. Chairman, Ranking Member Cohen, and Members 
of the Committee, thank you very much for asking me to testify 
today on the Responsibly and Professionally Invigorating 
Development Act of 2013, commonly referred to as RAPID.
    The RAPID Act continues a long line of bipartisan efforts 
by Congress, the President, and a few States to streamline the 
Nation's permitting process. A few examples include the 
President's asserted leadership on the role of permit 
streamlining in his State of the Union Address, his May and 
June 2013 presidential memoranda on streamlining permits on 
infrastructure projects, and his March and June executive 
orders on improving performance of Federal permitting on 
infrastructure projects.
    Congress is not to be left behind. Congress has taken a 
leadership role in a bipartisan way on the enactment of permit 
streamlining provisions in the American Recovery and Investment 
Act, SAFETEA-LU, and MAP-21, and most recently the Senate on 
WRDA. The Governors of California and Minnesota are also 
promoting permit streamlining to expedite infrastructure 
projects and job creation.
    The RAPID Act--and this is so important--is modeled after 
SAFETEA-LU and MAP-21, which addressed the long administrative 
delays in completing permit reviews for transportation 
projects. Both were passed by large bipartisan majorities in 
both houses of Congress and both signed by the President. By 
adopting the common sense approach that is in these bills, the 
RAPID Act merely imposes a common sense management process on 
Federal agencies that will make a huge difference in building 
projects and creating jobs, and it does this in three ways.
    One, it is literally all procedural. It requires a Federal 
lead agency to coordinate and manage the environmental review 
process within specified time periods.
    Two, it requires concurrent rather than sequential review.
    And three, it establishes a 6-month statute of limitations 
rather than a 6-year one. And this 6-month statute of 
limitations is literally 4 months longer than the statute of 
limitations for challenging any other administrative action 
under the Administrative Procedure Act, and it is the same time 
limit as in SAFETEA-LU, and MAP-21 is only 5 months.
    These very simple procedural changes will help our country 
create millions of jobs by getting rid of excess administrative 
delays. It does not go into what the outcome is or what the 
substance of any of the environmental laws are.
    Let me provide a clear illustration of the impact on jobs 
in the economy. A few years ago, the Chamber undertook a study 
called Project No Project which identified 351 electric 
generating and transmission projects around the United States 
that were seeking permits but could not secure a permit to 
begin construction. The most surprising aspect of our study was 
the fact that on renewable projects, there were 140 renewable 
projects seeking a permit and not being able to get it, and 
only 111 coal-fired power plants.
    And the main finding was that the opponents of these 
projects--and I think some of this you can address in the bill 
and some of it you cannot--brought a series of administrative 
and legal challenges at the local, State, and Federal level 
against the projects, causing such long delay that usually the 
project sponsor either lost financing or literally abandoned 
the project or moved the project to some other locality.
    Often many of these same groups that are arguing before 
this Congress to think globally about renewable fuels and 
renewable energy are acting locally to stop these projects. And 
that is what the 140 were all about, stopping them.
    The Chamber believes that the approach taken by RAPID will 
great accelerate the administrative permitting process, thereby 
allowing projects to be built and jobs to be created. The best 
illustration--and we know that it works--is the study that the 
Federal Highway Administration did of the SAFETEA-LU 
requirements in 2010, and they found that just through the use 
of the SAFETEA-LU process, the time cut for granting a permit 
dropped in half from 73 months to 37 months.
    RAPID is a common sense solution to a broken administrative 
process. Congress has it in its power to fix it. They fixed it 
in several other ways in a bipartisan fashion. The President 
has very clearly gotten behind permit streamlining. And so this 
is one issue where I hope at some point in time we all can work 
together because I think whether or not the bill stays in 
exactly the form it is in, the fact is that we have to do 
something to break the logjam and the time delays.
    Thank you very much.
    [The prepared statement of Mr. Kovacs follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________
    Mr. Bachus. Mr. Duffy?

         TESTIMONY OF DENNIS J. DUFFY, VICE PRESIDENT 
             AND COUNSEL, CAPE WIND ASSOCIATES, LLC

    Mr. Duffy. Good morning. My name is Dennis Duffy, Vice 
President of Cape Wind Associates, LLC. For the past 12 years, 
Cape Wind has been developing the Nation's first offshore 
generation project at an expense in private capital now 
exceeding $50 million.
    Cape Wind enjoys strong support of environmental, consumer 
advocacy, and labor groups and the overwhelming majority of 
Massachusetts voters. However, there is strong opposition 
funded primarily by a few wealthy landowners who may be able, 
on clear days, to see the project off on the horizon.
    The principals of our company have been in the business of 
developing and operating energy infrastructure projects for 
more than 30 years. We have developed and operated some of the 
most efficient natural gas-fired plants operating in the United 
States, as well as the Nation's two largest biomass plants and 
New England's largest solar generation project. We are, thus, 
intimately familiar with the Federal and State licensing 
processes for major energy projects.
    Offshore wind technology has now advanced to the point 
where it is both proven and reliable and can play a much more 
meaningful role in our national supply mix, and we undertook 
this project in specific response to policy directives from the 
Commonwealth of Massachusetts. However, if we are to realize 
the potential of these new energy resources, we need to ensure 
that our national energy and environmental policies are 
implemented in a consistent and timely manner. We know that 
this technology works. Although Cape Wind will be the first 
offshore wind farm in the United States, 55 such projects are 
already operating successfully in Europe, and the Chinese, 
after having started well after us, already have projects in 
service.
    One fundamental challenge to the development of energy 
projects is the lack of any limitation on the duration of the 
Federal review periods. As a result, with no required endpoint, 
opponents can use regulatory stalling and delay tactics to try 
to financially cripple even a project that meets all statutory 
standards and serves Federal and State policy objectives. 
Indeed, the chairman of our opponents' group recently admitted 
in the press that his strategy is one of ``delay, delay, 
delay.''
    Cape Wind submitted its Federal permit application to the 
U.S. Army Corps of Engineers in 2001. The BOEM issued a highly 
positive and 5,000-page environmental impact statement in 2009, 
and Secretary Salazar then issued the first lease for an 
offshore wind farm to Cape Wind in 2010 and approved our 
construction and operation plan in 2011. The project has been 
undergoing extensive regulatory and public scrutiny for more 
than 12 years and has now received all major permits and 
approvals. It also now has entered into two long-term contracts 
with major utilities, which have been approved by the 
Massachusetts Department of Public Utilities as cost effective 
and in the public interest.
    The NEPA review of Cape Wind's application was a process 
that included the active participation of 17 Federal and State 
participating agencies and afforded exceptional opportunities 
for public involvement. In addition, there has been extensive 
State regulatory review. After an exhaustive process, including 
20 days of expert testimony, the Massachusetts Siting Board 
approved Cape Wind's petition. In addition, the Massachusetts 
Department of Public Utilities approved Cape Wind's long-term 
sales agreement on a finding that it was cost effective and in 
the public interest.
    Still at this juncture, the project is facing appeals. In 
response, I would like to make three specific policy 
recommendations.
    First, limit the time period for agency review. National 
policy objectives would be far better served if environmental 
review of renewable facilities were conducted on a fixed 
timeline. We reference, for example, for your consideration the 
energy facilities siting acts of several of the New England 
States which provide a thorough environmental review of energy 
facilities within a statutorily limited time frame. In 
particular, the Massachusetts Siting Act limits the review 
period to 12 months from the date of filing an application. The 
Massachusetts act was adopted in 1973 on a bipartisan basis and 
has withstood the test of time.
    Secondly, we would encourage the consolidation and 
expedition of judicial review. And as noted in my testimony, 
there are several recent examples--this has been done in the 
Congress--for the Alaska Natural Gas Pipeline Act, as well as 
for offshore natural gas facilities. And I note in this regard 
that the Massachusetts siting statute also provides for an 
appeal of any Siting Board decision directly to the 
Commonwealth's highest court and that the appeals must be 
brought within 20 days to expedite a final resolution. Further, 
the Siting Act allows the board to grant a consolidated 
approval in lieu of any other State or local approvals that 
would otherwise be required, in a sense one-stop shopping, in 
which case the project would face only one consolidated appeal 
taken directly to the State's highest court.
    If the Nation is to encourage development of new resources, 
streamlining the administrative and judicial review process 
would be a most effective mechanism for getting facilities on 
line and it could be done without modifying any substantive 
right of review by any aggrieved party.
    Thank you.
    [The prepared statement of Mr. Duffy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________

    Mr. Bachus. Thank you very much, Mr. Duffy, for your 
outstanding testimony.
    Mr. Slesinger?

  TESTIMONY OF SCOTT SLESINGER, LEGISLATIVE DIRECTOR, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Mr. Slesinger. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for the opportunity to testify today. My 
name is Scott Slesinger and I am the Legislative Director of 
the Natural Resources Defense Council. NRDC is a nonprofit 
organization of scientists, lawyers, and environmental 
specialists dedicated to protecting public health and the 
environment.
    Many of the problems the environmental community sees with 
this bill were detailed by Dinah Bear in her testimony on a 
similar bill last year. I have attached her testimony as her 
comments are just as relevant this year.
    I will limit my testimony to some major points, address 
some of the myths surrounding NEPA, and leave comments on 
specific provisions from my written testimony and the Bear 
attachment.
    But I must highlight one provision discussed on page 6 of 
my written testimony. That provision automatically approves all 
permits and licenses, including those under the Atomic Energy 
Act, if an agency fails to meet the deadlines placed in this 
bill. This provision prioritizes an artificial timeline over 
the concerns of Americans that the Government properly regulate 
the safety of nuclear power plants. We believe this provision's 
impact on the Atomic Energy Act and permits required under the 
Clean Air and Clean Water Act is a giant step too far.
    I would like the Committee to appreciate why we have NEPA 
and why it is so important. With an emphasis on ``Smart from 
the Start'' Federal decision-making, NEPA protects our health, 
our homes, and our environment. The law was prompted in part by 
concerns from communities whose members felt that their views 
had been ignored in setting rules for the Interstate Highway 
Commission in the 1950's. When the Federal Government 
undertakes a major project, such as constructing a dam, a major 
highway, a power plant, or if a private entity uses a permit so 
it can pollute the air and water, we must ensure that the 
project's impacts, environmental and otherwise, are considered 
and disclosed to the public. And because informed public 
engagement often produces ideas, information, and solutions 
that the Government might otherwise overlook, NEPA has led to 
better decisions and better outcomes. The NEPA process has 
saved money, time, lives, historical sites, endangered species, 
and public lands while encouraging compromise and cultivating 
better projects with more public support. Our Web site 
highlights NEPA's success stories that prove this point.
    But when projects are unique, such as Cape Wind, a project 
NRDC supports, or if a project has well-funded opposition, such 
as Cape Wind, the process can be significantly delayed. But 
NEPA is not the cause of the delays this bill attempts to 
address.
    What are the causes of delay? Most delays in Corps of 
Engineers projects is not NEPA. It is lack of funding. For 
instance, the Corps is funded in the House appropriations this 
year at $4.6 billion, but their backlog of congressionally 
approved projects is about $60 billion. And this year's Senate 
bill authorizes $12 billion more. When speaking to project 
sponsors, it has been very easy to blame delays on rules and 
regulations, environmentalists, and NEPA, but the real delay is 
more likely inadequate funding for projects that have been 
authorized.
    Recent investigations by the Congressional Research Service 
addressing transportation projects makes a similar point, and I 
quote, ``Causes of delay that have been identified are more 
often tied to local, State, and project-specific factors, 
primarily local and State agency priorities, project funding 
levels, local opposition to a project, project complexity, or 
late changes in project scope.''
    The Chamber of Commerce Web site that Mr. Kovacs just 
mentioned, Project No Project, bears this out. The report 
offers evidence in support of amending NEPA but actually 
includes very few stories that implicate NEPA as the cause of 
project cancelation or even delay. Far more often than not the 
cases on their Web site attribute delay and cancelations 
directly to State regulatory hiccups, county ordinances, State 
government veto threats, local zoning issues, and financing 
problems that are not part of the NEPA process. In short, the 
problem is NIMBY not NEPA.
    NEPA is an important statute that is made incredibly 
complicated by this bill. This bill would overturn or conflict 
with many provisions adopted in MAP-21. Additionally, this bill 
would apply to the existing and contradictory requirements in 
the National Environmental Policy Act that is now not part of 
the APA, complicating the process and likely leading to delays, 
litigation, and uncertainty. And many of the provisions, as 
discussed in my written testimony, highlight impacts that are 
far-reaching and probably unintended.
    On Tuesday, Members of this Subcommittee heard from my 
colleague, David Goldston, regarding the Regulatory 
Accountability Act. In that bill, the intent is to slow down 
the regulatory process. The RAPID Act is essentially the 
opposite of the RAA. In the RAA, the number of alternatives to 
consider are multiplied and the grounds for appeal are 
increased. Additional analysis of impacts are required, making 
the implementations of the country's laws passed by Congress 
much more difficult if not impossible to implement.
    This bill is the opposite. Alternatives are limited. 
Deadlines force action or are defaulting to moving forward. 
Because permit approvals and EIS's are thought to delay 
construction projects, the RAPID Act makes it more likely that 
ill-conceived projects and unnecessarily expensive projects 
will move forward without a balance between the bias of the 
lead agency and those affected by the project. We believe those 
costs are just too high.
    Thank you very much.
    [The prepared statement of Mr. Slesinger follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________

    Mr. Bachus. Thank you. And for the record, you had attached 
Ms. Bear's statement.
    Mr. Slesinger. Yes.
    Mr. Bachus. But it does not identify her as who the 
statement is from. So I am going to, for the record, this is a 
statement attached to your testimony as Ms. Dinah Bear.
    Mr. Slesinger. Thank you, Mr. Chairman.
    Mr. Bachus. Thank you.
    Now, at this time, Mr. Ivanoff, you are recognized.

 TESTIMONY OF NICK IVANOFF, PRESIDENT & CEO, AMMANN & WHITNEY, 
     ON BEHALF OF AMERICAN ROAD & TRANSPORTATION BUILDERS 
                      ASSOCIATION (ARTBA)

    Mr. Ivanoff. Thank you.
    Chairman Bachus, Representative Cohen, Members of the 
Subcommittee, I am Nick Ivanoff, President of Amman & Whitney 
out of New York. I am here today on behalf of the American Road 
& Transportation Builders Association where I currently serve 
as First Vice Chairman.
    ARTBA, now in its 111th year of service, represents all 
sectors of the U.S. transportation construction industry, which 
sustains more than 3.3 million American jobs. Our industry 
directly navigates the Federal regulatory process to deliver 
new transportation projects and improvements to existing 
infrastructure. As such, we have firsthand knowledge about 
specific regulatory review processes and burdens that can and 
should be alleviated.
    Every reauthorization of the surface transportation program 
since 1998 has featured reforms to the transportation project 
review and approval process as a major bipartisan objective. 
These measures provide valuable insight into the successes and 
failures of legislative efforts to reduce delay in the delivery 
of needed transportation projects without sacrificing 
regulatory safeguards.
    Today's hearing focuses on the RAPID Act, which seeks to 
take some of the reforms from recent surface transportation 
bills and expand their use to other areas of Federal 
responsibility. According to a report by the U.S. Government 
Accountability Office, prior to the enactment of MAP-21, it 
took as many as 200 major steps and 19 years to deliver a new, 
major federally funded highway project. These delays are not 
only an inefficient use of Federal resources, but also deny the 
American people mobility and safety enhancements and stifle job 
growth and economic expansion.
    Reducing the amount of time it takes to deliver 
transportation improvements was first addressed in the 1998 
TEA-21 bill. This legislation concentrated on establishing 
concurrent, as opposed to sequential, project reviews by 
different Federal agencies. While this improvement was a step 
in the right direction, it had limited impact as concurrent 
reviews were discretionary rather than mandatory.
    The 2005 SAFETEA-LU saw the introduction of lead agency 
status for the U.S. Department of Transportation on project 
reviews. Lead agency is an important mechanism for improving 
the project delivery process as it gave DOT a means to request 
action by non-transportation agencies. The measure also 
included limitation on when lawsuits can be filed against 
projects. The combination of these two reforms created new 
levels of predictability for project review schedules and 
provided opportunities to shorten the approval process for 
needed transportation improvements.
    There is, however, a clear lesson from 1998 and 2005. 
Simply giving Federal agencies the ability to complete 
regulatory reviews in a more efficient manner in no way 
guarantees that authority would be utilized. For this reason, 
subsequent reform efforts focused on not just providing 
additional tools to reduce delay but also creating mechanisms 
to ensure or at least encourage the use of those tools.
    Last year's MAP-21 took project delivery reform even 
further. In addition to building upon the concept of lead 
agency, MAP-21 also includes specific mandatory deadlines for 
permitting decisions with financial penalties for agencies that 
do not meet those deadlines. In addition, MAP-21 creates 
multiple new classes of categorical exclusions, allowing 
projects with minimal environmental impacts to avoid 
unnecessary multiyear reviews.
    While MAP-21 represents an unprecedented and comprehensive 
approach to reforming the transportation project delivery 
process, that does not mean ARTBA will stop looking to further 
reform and ensure that transportation improvements are advanced 
as efficiently as possible. Reforming the environmental review 
process for transportation projects has been a 15-year 
evolution that has provided important lessons about what works 
and what does not work in this area.
    Mr. Chairman, Representative Cohen, ARTBA appreciates the 
opportunity to be part of today's discussion and we certainly 
look forward to answering any of your questions. Thank you very 
much.
    [The prepared statement of Mr. Ivanoff follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                               __________
    Mr. Bachus. Thank you very much, Mr. Ivanoff.
    At this time, I am going to recognize the sponsor of this 
legislation for questions, the gentleman from Pennsylvania, Mr. 
Marino.
    Mr. Marino. Thank you, Chairman.
    And again, good morning, gentlemen.
    Mr. Slesinger, I would like to begin with you, please. In 
March last year, the President issued an executive order 
directing agencies to, quote, ramp up efforts to improve the 
Federal permitting process by, among other things, reducing the 
amount of time required to make permitting and review 
decisions. And more recently on May 17 of this year, the White 
House press release, streamlining the process will mean the 
U.S. can start construction sooner, create jobs earlier, and 
fix our Nation's infrastructure faster.
    Do you agree with the President's proposal here?
    Mr. Slesinger. I think the President's proposal went 
forward. I think because of his statement and other things, 
more people, more staff were working on some of these reports 
that made them done faster, which is important.
    Mr. Marino. But we have seen no results yet of that. We 
have seen no job increases because of this.
    Mr. Slesinger. I do not think that is the case.
    Mr. Marino. I do think it is the case. It is the jobs. This 
is an Administration that says jobs are the issue.
    And the red tape that I see taking place--you have worked 
in Government your entire life. You have a distinguished 
career. I was in industry for 13 years in factories working, 
building them, started there sweeping the floors until I put 
myself through college and law school. I saw what red tape does 
to jobs, infrastructure. When people come in with a little 
authority, a bureaucrat, and ask--we are going to shut you down 
for this reason. Why? It is not logical. And the response is 
because I have the power. I can.
    When roofers in my district--OSHA comes through and a young 
person just out of college sites them and shuts them down and 
said what did we do. Well, our instruction is to find as many 
construction crews as possible.
    When I hear of delays from 7 to 10 to 12 years before 
permitting can be put through for sewer systems and water 
systems, and you think that is efficient? You said that this 
legislation is not efficient. Well, I can assure you when this 
legislation is passed, it will submit these permits, approve 
them, done in the proper manner a lot faster than 7 and 9 and 
10 years.
    Mr. Slesinger. I think the reports the GAO has recently 
done has shown, for instance, that wind and solar permitting 
has been shortened by about 40 percent in its permitting.
    But I think you will find that if you check in 
Pennsylvania, if you go to the Chamber Web site of Project No 
Project, you will see most of the delays in Pennsylvania are 
not NEPA. It is permitting. It is zoning restrictions. It is 
opposition that is separate from the Federal NEPA process.
    Mr. Marino. I understand what you are saying there, sir. I 
understand what you are saying. But don't you think it is 
logical to have an entity, a gatekeeper keep the bureaucratic 
system, whether it is in the Federal, State, or local 
government, on a timetable instead of one entity who has 
nothing to do with another entity says that I do not like the 
report from that agency, so I am stopping it and we go back to 
zero.
    What is wrong with having an entity say, okay, agency, you 
have this amount of time? If you have any issues, get to work 
on it. And with bureaucrats that I have seen--I was a 
prosecutor for 18 years. I saw it in all forms of government. 
It is just blatant here in D.C. where the bureaucrat will say I 
will get to it when I get to it. If they had to work on an 
assembly line, they would be out of a job.
    Mr. Slesinger. Under the current CEQ regulations, project 
sponsors are able to ask for and get timelines, and in 25 years 
of those regulations, I do not believe there is any case where 
the timeline was not agreed to by CEQ usually along what the 
project sponsor wants. But the key again, as you will see when 
you look at the cases in the Chamber Web site, it is other 
issues. It is the financing. It is the local opposition and 
zoning and the local politicians for various reasons----
    Mr. Marino. Well, then that should be part of an overall 
gatekeeping process. You say that a lot of it is because of 
sequestration. I am really tired of hearing about the 
sequestration because we have seen what a farce it is so far. 
And let me give you an example of that in my building, right in 
the Cannon Building where they are locking doors and they 
cannot have guards there. Where they normally have two, well, 
they locked half the doors. Now there are four guards at an 
exit.
    So, come on. Let's call it what it is. We have a situation 
where things move at a glacial pace. And I hear from my 
constituents constantly that if we could just eliminate this 
red tape, if we could just eliminate all the agencies that 
duplicate the services and really have no experience out in the 
field.
    So you are saying you do not agree that we can make this 
more efficient and more effective?
    Mr. Slesinger. We can make it more efficient. We can make 
it more effective. But to really do that, we are going to have 
to change the federalist system and give a gatekeeper----
    Mr. Marino. That is the first thing we agree with, sir. 
Change the Federal system. And you know something? You are a 
very intelligent man. I respect your credentials, and I think 
you have a lot to offer here. And I am extending my hand, as I 
do to my friend on the other side of the aisle. Give me some 
suggestions. Let's talk about how we improve efficiency. If we 
improve efficiency, it is going to create jobs. We create jobs. 
It is going to get us out of this $17 trillion of debt. Do you 
agree with me, sir?
    Mr. Slesinger. I think we can. I think, though, we must 
remember particularly in NEPA, as Mr. Ivanoff has said, we have 
been making changes every single year. Let's see how those work 
before we now duplicate, as unfortunately your bill does----
    Mr. Marino. Duplicate? You are telling me about 
duplication. I would love you to come in my office and see the 
stacks of information and regulatory agencies and laws that are 
not only duplicated but triplicated and 14 other different 
ways. The left hand does not know what the right hand is doing.
    And the people that are out in the field making these 
decisions--they do not have the experience, and they do not 
know what it is like to create a job and they do not know what 
it is like until it affects them personally when they decide to 
get out of the government work and get into private enterprise. 
And I have a couple of friends that have done that, and they 
will say to me, you know something, Tom, a couple years ago you 
and I did not agree when I was with the government at a State 
level. But now I am with industry and I see the problem. Let's 
work on that.
    Mr. Slesinger. I would just point out if your bill passed 
and Mr. Ivanoff tried to do an EIS, he would have three 
conflicting laws to have to look at: NEPA under the APA, NEPA 
under the regular National Environmental Policy Act, and the 
requirements now under MAP-21.
    Mr. Marino. Well, then let's focus on how to deal with that 
issue as well. I do not know it all. I will be the first one to 
admit that. But this is a beginning, and we have to start doing 
something now. This country cannot afford to continue to have 
roadblocks and obstacles put up by people who, number one, do 
not know what they are doing, people in the bureaucracy who 
really do not know what it is like to put a 40- or 50-hour week 
in a factory and they have no ideas of what it is like to be an 
entrepreneur to go out and create jobs that are blocked because 
of unreasonable red tape and inefficient and inexperienced 
people.
    I do not know what my time is now, but I am pretty sure I 
am over it. So I look forward, sir, to working with you and 
taking advantage of your talent and experience, along with 
anyone else and certainly Mr. Cohen, my friend on the other 
side. So I thank you. I yield back.
    Mr. Goodlatte [presiding]. We thank the gentleman.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Cohen, for his questions.
    Mr. Cohen. Thank you, Mr. Chair.
    And Mr. Marino, my home is on 10 acres, but within 10 
acres, very close, I have bear also. I live right near the zoo. 
[Laughter.]
    Well, mine come up on the porch, and they are fat and they 
are healthy.
    Mr. Cohen. I used to have dreams, when I was a child, about 
that, but it never happened thankfully.
    Mr. Slesinger, do you and Mr. Kovacs ever talk? Do you and 
Mr. Kovacs--do you all talk?
    Mr. Slesinger. We did before when I worked at the 
Environmental Technology Council and I represented an industry 
association.
    Mr. Cohen. Mr. Kovacs, do you think it would be a good idea 
if you all talked and maybe found some--I would love to have 
common ground where Mr. Marino and I could get something and we 
could make our economy----
    Mr. Kovacs. I would be very appreciative to talk to Scott, 
very appreciative.
    Mr. Cohen. Are there places you think that you and he could 
agree to a way to speed up the process?
    Mr. Kovacs. I am sure there are and I hope there are.
    The one thing I would like to just reassure you and Mr. 
Slesinger--nothing in this bill--this bill is strictly 
procedural. Nothing affects the underlying substance of NEPA at 
all. And I think that is one of the confusions that has been 
here. I think the Committee--whoever drafted the bill for the 
Committee did a very good job of staying out of the substance. 
And the point of having multiple agencies involved, in other 
words, a three-tier type system--that is exactly--I mean, to be 
very honest with you, that is exactly what is starting to move 
forward with, for example, SAFETEA-LU and MAP-21 and, frankly, 
even in the Recovery Act. So the Committee has a chance to 
really put a timeline around the package, and I think it would 
be really well served if you can do that.
    Mr. Cohen. Mr. Slesinger, do you agree with that?
    Mr. Slesinger. No. I think there needs to be flexibility 
for the timelines. If you are doing a highway project that is 
similar to a lot of other highway projects, there is a good 
history to know how long it should take and those timelines can 
be agreed to. But when there is unique projects, such as Cape 
Wind turned out to be, if it is a nuclear power plant licensing 
where the timelines are somewhat longer, it may be 
inappropriate to set up a very fixed timeline. For instance, 
nuclear power plants--a lot of the processes were stopped when 
Fukushima happened and people had to go back to see what we 
could learn to make sure we do it right. So we just need some 
flexibility.
    Mr. Cohen. Let me ask you this. Mr. Duffy talked about a 
Massachusetts law. Are you familiar with the Massachusetts law 
that has a 12-month limit?
    Mr. Slesinger. No, I do not. I am sorry.
    Mr. Cohen. Mr. Duffy, do you think that that Massachusetts 
law is necessarily something that could be--is it apples to 
apples or is it something different?
    Mr. Duffy. I think it is very close. That is why I brought 
it forth as an example for consideration. As a matter of fact, 
it was introduced in the early 1970's largely in response to 
localized oppositions to power plants, in particular nuclear 
power plants. And the decision was made that the ultimate 
policy decision should be made on a comprehensive basis on a 
statewide basis rather than multiple decisions by numerous 
agencies at the local, municipal, and State agency, but also 
recognition that projects needed to move forward led to the 
provision of the 12-month limit, as well as a direct appeal to 
the State's highest court so that projects could move forward 
more quickly. And I think that was a bipartisan bill. It has 
got 30 years of experience in Massachusetts, and it has 
withstood the test of time. That is why I thought it was an 
excellent example for Congress to consider.
    Mr. Cohen. I would hope that we could find a way to do it. 
I think what Mr. Slesinger talks about--the lack of money 
sometimes is a problem. Mr. Kovacs and Mr. Duffy, do you not 
agree that sometimes lack of funding is the cause for the 
delay?
    Mr. Duffy. It can certainly be a factor.
    Mr. Cohen. Mr. Kovacs, do you agree?
    Mr. Kovacs. Well, the projects that we looked at, you have 
to appreciate, were all private sector and the money was there. 
And in Project No Project, for example, out of the 351 
projects, the private sector said it was willing to invest $571 
billion. And in the highway funds, we have always supported 
additional funding for the infrastructure. On the Government 
side, we have supported the money, and on the private side it 
is there. So I do not think it is really money.
    Mr. Cohen. Mr. Slesinger?
    Mr. Slesinger. Part of it is money. Part of it is just 
experience. I will give an example. The Bureau of Land 
Management used to take 4 years to do an analysis for putting 
wind or solar on our public lands. With more staffing and more 
experience, the time now is just slightly over 1 year. So when 
we get more experience, we get more staffing, the agencies can 
do their job much quicker and efficiently.
    Mr. Cohen. Since my time has expired, I will yield back the 
balance of it.
    Mr. Goodlatte. I thank the gentleman.
    And the Committee will stand in recess. It may be a very 
brief recess because the Chairman of the Subcommittee I believe 
is on his way back from the vote, and he will ask his questions 
as soon as he returns. But the rest of the Members will recess 
now so we can go handle a vote on the floor.
    [Recess.]
    Mr. Bachus. We are back from our recess. We will give 
everybody a minute or so to reassemble. I am not sure. I think 
we do have some other Members coming. I anticipate maybe two 
other Members who would like to ask questions.
    Let me say before I initiate my questions I think we all 
have these experiences we go through, and it is fascinating, 
Mr. Duffy, the experience your company has had. Amazing. And 
also amazing that Massachusetts has a short statute. It proves 
that you can do things deliberately and yet thoroughly and in a 
short period of time.
    Mr. Duffy. And I would add, Mr. Chairman, as you noted in 
your opening statement, the initial guidance from the CEQ from 
1981, the famous 40 questions--on the very specific question, 
what is the timeline required for a NEPA process, their 
guidance at that time was the council has advised the agencies 
under the new NEPA regulations, even large, complex energy 
projects would require only about 12 months for the completion 
of the entire EIS process. So that was in 1981, roughly 
contemporaneous with the adoption of the Massachusetts 
statutes. They were both focused on a 12-month review at that 
instance. And somewhere between 1981 and today, we have had a 
wide expansion, obviously. And I think it may be useful for the 
agencies to get a more clear statement of congressional intent 
as to how long this process----
    Mr. Bachus. That is a very good point.
    Mr. Slesinger, you refer to those 40 questions in your 
testimony.
    Mr. Slesinger. Well, I think the one thing that we have to 
be aware of with timelines and in this bill in particular is 
that a project sponsor can require an agency to start working 
on the EIS process, but the agency may not be funding that 
construction for 10 or 15 years. That is a big problem with the 
Corps of Engineers where they may begin EIS's, but they know 
the funding is 15 or 20 years out. So there is a tendency in 
agencies like that not to move that EIS process along quicker. 
So maybe we need to make sure that if we are going to do the 
EIS process, there is going to be funding, be it private or 
public, to make the timeline make sense. You do not want to do 
an EIS so far before the beginning of construction that you are 
going to learn things that will be important. For instance, it 
would be silly to do storm protection on Long Island or Staten 
Island 5 years ago, then have Sandy come and find out that you 
learned so much you really need to go back and do the whole 
thing. So if we can time the EIS closer to when construction or 
whatever is going to happen, I think it would make agencies not 
maybe take a lot of time----
    Mr. Bachus. Well, of course, I think that would almost 
argue for a streamlined process because many times we do have 
an environmental impact and then there are court appeals and 
things are tied up for 10 years or 8 years and then we are told 
we have to update all those engineering studies. And that feeds 
back in to more delay.
    Now, I went to India several years ago, and they took me 
out to a house on a road. It was a four-lane highway. And in 
the middle of the highway, all of a sudden it narrowed to one 
lane, and there was a two-story house in the middle of what 
would have been the road. And they explained that Nehru was so 
concerned because he was persecuted by the British that he 
established a long administrative appeal process where you 
could appeal, appeal, appeal, meant to protect his civil 
liberties. But in ensuring all that, it can take up to 50 years 
in India to condemn a piece of property. So I said, well, this 
one piece of property--who is this person? He is a government 
official. Well, he has got some contacts. I said, didn't he get 
a little embarrassed by this? Well, he has been dead for 20 
years. [Laughter.]
    If you go to Delhi, if you go to Mumbai, old Bombay, you 
will get on the highway there. You might get on an elevated 
highway and then all of a sudden you have to get off and wind 
your way through an area that is just teaming with people and 
pedestrians, and what can be--from downtown Mumbai to the 
airport is a 4-mile trip that takes 2 and a half hours. So when 
I say that we are falling behind, we are not falling behind 
India.
    Now, if you want to go someplace fast in India--and I mean 
not fast but you will get on their railroads which function 
about like our 1940 rail system. And it is not fast but it is 
not slow. They were built before all this. So the railroads are 
relatively straight. But you could not build those railroads 
today.
    In fact, we have a Honda plant in Birmingham. They wanted 
to have two rails instead of being a captive shipper. They were 
never able to build a 7-mile rail spur because of one property 
owner. And that was part of the deal that the State made them. 
But it delayed that plant 6 years. And we have had delays 
during 2008-2009, people out of work, still out of work. They 
want to be taxpayers. They do not want to be receiving public 
assistance. It all fits in.
    One of the criticisms of the stimulus, which I am sure you 
heard in the construction business, was they did projects that 
were shovel-ready and not maybe because that was the best 
project. So you had a highway that had a bridge that was 
substandard or an elevated highway or you needed to do 
something. You needed to add a lane. Instead, you blacktopped 
over an area that maybe did not even need to be blacktopped 
then. But because that was shovel-ready, you could get a permit 
for that. So a lot of the work that was done as a result of the 
stimulus was--you know, we need to put people to work right 
away. We do not have 5 years. So a lot of it was almost--you 
know, it was not the priorities. It was blacktopping roads and 
repairing curbs and things of that nature.
    If no one else returns, I am going to ask two questions, 
and I will start with Mr. Kovacs. If there are true 
environmental problems with a given project, will the RAPID Act 
prevent Federal officials from assuring that those problems are 
avoided, minimized, or mitigated before a permit is granted in 
your opinion? And that is Mr. Slesinger or certain 
environmental groups are raising----
    Mr. Kovacs. Absolutely. Whatever is being examined today 
under NEPA will be examined under the RAPID Act. For example, 
there have been no known environmental problems under SAFETEA-
LU. So everything that was going on with NEPA still goes on.
    Second, not only does it not affect NEPA, but it does not 
affect clean air or clean water. It does not affect any 
statute. What RAPID does is three very simple things.
    It has a lead agency that is responsible for coordinating 
the project within a time frame. And I say within a time frame.
    Second, it requires that people come in and out of the time 
frame in a managed way and that they cannot use sufficiency as 
a delaying tactic. Right now, one of the reasons that the 
process goes on forever is that nothing ever becomes 
sufficient. By putting time frames on it and requiring it to be 
managed in a time frame, the agencies come in, state their 
objections, and then they move out.
    And finally, because of the statute of limitations in NEPA, 
which is a 6-year statute of limitations imposed by pure court 
order, the Federal Government ended up with a 6-year statute of 
limitations in an administrative proceeding that actually and 
for all other proceedings is 6 months.
    So, again, nothing that has happened in SAFETEA-LU has 
shown that there have been problems. Nothing that is in RAPID 
actually moves into any substantive changes.
    And finally, if you do not mind. You were talking about the 
stimulus act and blacktopping and shovel-ready projects. One of 
the reasons the Congress was even able and the executive was 
even able to get the projects done that were done is that on 
the floor of the Senate, Senator Boxer and Senator Barrasso 
came to an agreement and understood that if NEPA operated the 
way it normally operates that you would not have ever gotten to 
a shovel-ready project.
    Now, I want to give you an idea because these are the 
Administration's numbers. Out of the 192,000 projects that were 
in the stimulus act that got constructed, 184,000 of them went 
under the most expeditious process possible. Otherwise, you 
would not even have had those projects done.
    Mr. Bachus. And those were just blacktopping. Most of them 
were very simple projects.
    Mr. Ivanoff, do you want to comment on that?
    Mr. Ivanoff. No. I think going back to your question about 
will the RAPID Act catch issues, I just want to reiterate that 
the process is not what we are talking about here. That is not 
what I think everyone here is speaking to. What we are speaking 
to is the review processes. And that is, I think again, having 
a lead agency status is, I think, a good priority in this 
particular piece of legislation. And the second one is trying 
to get the agencies to do these reviews concurrently. If you 
have them sequentially, happen sequentially, you will find one 
agency, the Fish and Wildlife, will finish the first 6 months. 
Army Corps does not get to their review for a year or year and 
a half. All of a sudden, you have conflicting issues that might 
come up over a similar mitigation. And now you have to go back 
to an agency who has got other priorities. If you can address 
all of those in a timely manner through the first 6, 7, 8 
months of this review process, now as a lead agency status, you 
can bring all of these agencies to the table and you resolve 
any of these kinds of conflicts in a coordinated and reasonable 
manner. And I think that is what will take a lot of this review 
process and shorten the time frame. That is what would help 
tremendously.
    Mr. Bachus. I know, Mr. Slesinger, you mentioned the Corps 
of Engineers. A lot of the delay is because they just do not 
have the funding.
    Mr. Slesinger. Yes.
    Mr. Bachus. Congressman Jo Bonner from Mobile can tell you 
about a project on Mobile Bay where a landowner wanted to build 
a camp for handicapped and challenged children with different 
developmental or physical handicaps. And he wanted to build a 
lake on that property. And the Corps took several years. I 
mean, it was a matter of 6-8 years. When they finally ruled, 
they asked him to do $1 million worth of remediation. Now, he 
was going to give the land and build a camp. I think it was 
wetlands. Congressman Bonner would love to enter a statement 
for the record. But they were told to do remediation because 
they were affecting wetlands. And Congressman Bonner went with 
them to the land, and they were unable to find the wetlands. I 
am going to have him tell it exactly the way it was. But he 
said he is actually bitter about that. I would love to maybe 
have him back or maybe on the floor, if this bill comes to the 
floor, to talk about that.
    How many jobs are we talking about creating, Mr. Kovacs, 
with RAPID Act's enactment, and how fast could these jobs 
become a reality? And maybe how long do you think they will 
last? I know they pay highly. I know the construction industry. 
Those are very good jobs. And we in this country are facing, a 
lot of people are saying, minimum wage jobs. But these are not 
minimum wage jobs.
    Mr. Kovacs. Well, these certainly are not minimum wage 
jobs, but to give you an idea--and I do not know that anyone 
has done a study and compiled everything. But just on Project 
No Project, had those 351 projects been completed, that was a 
private sector investment of roughly $570 billion. And our 
estimates were during the 7 years of construction, it would 
have been 1.9 million jobs a year, and thereafter, it would 
have been about 750,000 jobs a year. So you are close to 2 
million.
    On the Recovery Act, because of the fact that you needed 
some form of waiver from NEPA going through the most 
expeditious route, 184,000 of the projects out of the 192,000 
projects went forward. The President's own estimates of the 
value of the stimulus was about 3.5 million to 5 million jobs. 
So if you took a million, 20 percent of that, and added it, you 
were at 3 million jobs there, and then whatever the jobs are 
created in SAFETEA-LU. So you are looking at a minimum of 3 
million jobs just by moving projects forward in a more rapid 
way.
    Mr. Bachus. Mr. Ivanoff, do you have any comment on those 
jobs and how much they pay?
    Mr. Ivanoff. Well, in terms of jobs, obviously I totally 
agree with you. First of all, I think these construction jobs--
I think you have to realize that they really cover an extremely 
broad spectrum. For these jobs, you have got to plan them out. 
You are going to have environmentalists take a look at it. You 
will have the environmental and scientific community get 
involved. You will have engineers, designers get involved 
designing the project. You will then go out to the 
construction. You will have, as you are saying, construction 
jobs. And to construct, you need to have equipment. So you are 
going to generate manufacturing jobs. The quarries have to 
bring in the cement. They have to bring in the aggregate.
    So the beauty of the construction industry is that it does 
not just give you construction jobs, but you start off with 
early planning, engineering with the white-collar workers. You 
get to the blue-collar workers. And then once you have whatever 
it is you have constructed in place, that facility now 
generates economic activity. So it is one of the greatest 
multipliers, I believe, of economic activity that you could 
possibly have.
    Mr. Bachus. And obviously, some of the jobs you are 
creating--the Midwest where a lot of that equipment is made--
those are places that need it.
    Mr. Ivanoff. Peoria, Illinois, Caterpillar. Right?
    Mr. Bachus. Yes.
    Mr. Duffy and then Mr. Slesinger.
    Mr. Duffy. I would just like to stress the same point for 
electric power facilities. It is a very labor-intensive job. 
Just for example, we have a project under construction that 
should be on line by this fall in Florida with 700 workers on 
the job site today and a 30-month construction schedule. We 
have done two projects of that scale in the interim while we 
are still trying to get this wind project permitted. And 
notably, neither of those triggered NEPA.
    Mr. Bachus. Mr. Slesinger?
    Mr. Slesinger. I would just want to point out that the 
things that were done to expedite the Recovery Act were using 
existing law. A lot of the improvements that Mr. Kovacs 
mentioned and Mr. Ivanoff mentioned were under the current law. 
And so, for instance, though there has been a lot of talk about 
doing concurrent reviews, that has been the CEQ policy for 20 
years and that is how they move forward.
    So I think a lot of the things that people want to happen 
are happening, but the real problem that is really delaying a 
lot of these projects are local NIMBY issues that are not part 
of the NEPA problem. So addressing NEPA, you are still avoiding 
maybe 90 percent of what is causing the delays that you are 
concerned about.
    Mr. Bachus. All right. Thank you.
    Mr. Slesinger. I would also want to note--and I do not want 
to speak for Mr. Duffy, but others of us are all on record of 
supporting more infrastructure, for raising revenues through 
gas taxes or otherwise to help that because we all agree--
environmentalists, construction, the Chamber--that we need to 
have a better infrastructure, and what we have been doing has 
been very short-sighted.
    Mr. Bachus. Thank you. I appreciate that. And I think there 
is ground for commonality and for agreement. I hope that we can 
get there.
    At this time, I am going to recognize the gentleman, Mr. 
Marino, as I said several times, the sponsor of this 
legislation.
    Mr. Marino. Thank you, Chairman.
    I think it was Mr. Ivanoff who hit on the point--I could be 
wrong. Maybe it was Mr. Slesinger as well. But this is a review 
piece of legislation, clearly a review piece of legislation. 
And I know, Mr. Slesinger, you said that there is existing law 
that has streamlined, but still we are looking at 7 to 10 years 
even taking into consideration that municipalities may have a 
part in slowing this down. And so I see what is happening.
    I am going to use two examples of two agencies, EPA and 
Army Corps. The Army Corps is doing their review, and we say to 
EPA what is going on with your review. Well, we are not doing 
our review yet because we are going to wait till Army Corps is 
done. And I think it is critically important that these reviews 
be done simultaneously.
    And you know what else would be, I think, very, very 
helpful is when I was in industry helping to build factories--
and it was not a revelation, but one company could not figure 
out why they had to put so much into reinvesting in the 
factory. And I said who sat at the table to determine what the 
factory is going to be like. Well, our architect and the plant 
manager. I said did you ever think of bringing in people that 
are going to transfer in that work on the line. Did you ever 
think of having the electricians sitting there with you? Did 
you ever think of having the shipping department manager sit 
down and say what he or she needs? Because Mr. Ivanoff and I 
can sit down and we think we come up with a great idea on how 
to put something together and implement it, but we do not 
include Mr. Slesinger or Mr. Duffy or Mr. Kovacs. And they will 
say wait a minute. When it is up and running, they will say 
this is causing us a problem. So have the people at the table. 
Particularly the review agencies can talk back and forth 
saying, you know, that is an issue and we should look at that, 
but let's take a look at it from this approach.
    And throwing money at it, it has proved in D.C. that it 
does not work. You know, look at the Department of Education. 
Look at the Department of Energy. Look at the money that we are 
throwing at agencies and bureaucracies, and we still have more 
kids dropping out of school than ever before. And we went from 
25 percent dependency on foreign oil to 62 percent dependency 
on foreign oil. So what is happening over there?
    And it just gets down to the point where--Steve, my friend, 
Mr. Cohen, brought up a point that made me think of something. 
Mr. Slesinger, you talked about a review process and one size 
does not fit all. And I am the first one to stand up and say 
one size does not fit all because it is obvious on the way it 
is working. It is not working now.
    But perhaps we should explore this idea. I would like a 
period of a set, fixed time. However, if one agency comes in 
and says we need more time for this review, I do not want that 
to stop the review, and I do not want that to be the only 
excuse. You need more time. You come in with substantive 
evidence on a very narrow issue specifically why you need more 
time and then address that issue immediately instead of just 
saying we need more time. There has got to be a group or a 
panel or someone that says tell us why you need more time and 
then when are you going to get to work on it.
    Mr. Slesinger, do you want to respond to that?
    Mr. Slesinger. Yes. I think one thing we need to remember--
and I want to expand on some of your points--is that if we can 
get people at the table, if we can get the local community buy-
in from the beginning, you do much better. One of the issues we 
have with your bill is that you can have all these Federal 
agencies working together and meeting all your timelines, and 
then in the end, you have only 30 days or 60 days for public 
comment. And maybe all those people who are out there who are 
going to be affected are just hearing about it and have just an 
incredibly short time period to act. There are ways the system 
can work to bring people in earlier.
    Mr. Marino. We need an efficient, general form of notice.
    Mr. Slesinger. Exactly.
    And another thing that we might want to look at is 
sometimes you cannot get everybody working immediately.
    Mr. Marino. I understand.
    Mr. Slesinger. For instance, if Mr. Ivanoff wants to cross 
the Hudson River but he does not know if he wants to do it--or 
the agency is not sure of a bridge or a tunnel is the way to 
go, the environmental impacts to do it when you do not know 
which of those two options is really on the table----
    Mr. Marino. Agreed.
    Mr. Slesinger. There are ways to do that more efficiently.
    So, again, we think the bill needs to be aware of the fact 
that things are not--it is not just repaving the same road. A 
lot of these projects are very big.
    And one thing I wanted to say where the bill is not process 
is the automatic permitting. Under the Atomic Energy Act, the 
Clean Water Act, the Clean Air Act, if the agencies do not get 
done in the 1 year, the permits automatically----
    Mr. Marino. Then shame on the agency. Then the agency needs 
to be revisited. Someone else needs to be running the agency. 
With the proper notice--with the proper notice--they should be 
on this unless, again, they come up with a reasonable exception 
as to why they cannot get into this process immediately.
    Mr. Slesinger. You could have some imaginary future 
Administration say, gee, this is a really politically difficult 
issue. I am just going to sit on my hand, not do anything, and 
let the permit be automatically approved. That is a concern.
    Mr. Marino. And then, you know, the voters are going to 
deal with the legislators, the people that they elect in 
office, to let something like that happen.
    I am passionate about this. Please excuse my Sicilian 
passion. It is not directed at you, sir, or anyone else. And I 
think this is something, if we just roll our sleeves up and say 
let's just apply common sense, check our egos at the door, and 
what is best for this country, we are going to be able to 
protect the environment, protect our children, and create jobs 
in a much shorter time then we are doing right now.
    So I look forward to any input and any guidance that any 
one of you or anyone else wants to give me.
    Mr. Slesinger. I look forward to it.
    Mr. Marino. Thank you.
    I yield back.
    Mr. Bachus. At this time, I recognize the gentleman, Hakeem 
Jeffries, from New York.
    Mr. Jeffries. Thank you, Mr. Chair.
    I have in my hand a letter from more than a dozen 
environmental groups in opposition to this legislation, as well 
as a CRS report from April 11 of last year, a statement of 
Administration policy dated July 23, 2012, and a letter from 
the Council for Environmental Quality from April of this year, 
that I would like to ask unanimous consent they be entered into 
the record.
    Mr. Bachus. Absolutely. Without objection. Seeing no 
objection, they are introduced.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Bachus. That will not take away from your 5 minutes 
either. So we will start the clock. Everybody has gone over 
their 5 minutes. So there is really no such thing as 5 minutes.
    Mr. Jeffries. Well, Mr. Chair, we all appreciate your 
southern hospitality.
    Mr. Kovacs, I want to explore sort of a narrative that has 
been put forth today as it relates to the recession and then 
the slow, in the words of others, economic recovery subsequent 
to the collapse of the economy in 2008. And certainly I think 
most reasonable people would agree that the economic recovery 
has not been as robust as we all would like for the good of the 
people that we represent.
    It has been an uneven recovery, but certainly it seems to 
me, based on objective criteria, that corporate America has 
been a disproportionate beneficiary of the recovery to the 
extent that there has been one of significance subsequent to 
the collapse of the economy. Is that a fair statement?
    Mr. Kovacs. I do not really do that kind of economic 
analysis. I am sorry. I cannot help you.
    Mr. Jeffries. Okay. But would it be fair to say that part 
of your concern related to the permit process is that it 
hinders the ability of American companies to be successful? Is 
that not the genesis of your report and the reason why you are 
sitting before us today?
    Mr. Kovacs. Well, I think the essence of the report says 
that there are projects that the private sector--and I know 
there are projects especially in the transportation field that 
the Government sector would like to do, and we think that it 
would enhance job creation and enhance the economy if they 
could move forward more quickly.
    I think that the statistics--and you were not here when I 
went over like on the American Recovery Act. One of the 
statistics that is really amazing that the Administration puts 
out is that out of the 192,000 projects that went through the 
Recovery act, 184,000 of them had to go through the Boxer-
Barrasso Amendment which is use the most expeditious route 
possible under NEPA. And so if they had to use the full-blown 
NEPA versus the Barrasso-Boxer Amendment, the question is how 
many of those would have stalled out.
    And my only point is that I think if you listen to all the 
panelists, you look at where they are in the Senate, look at 
where they are in the House, there is an enormous amount of 
agreement that we have to get the time frame right and things 
have to move quicker. And I don't think----
    Mr. Jeffries. And I would agree with that. Reclaiming my 
time, I would agree with that concern as it relates to the time 
frame and making sure it is appropriate both in terms of its 
rigorousness but not unnecessarily hindering the opportunity 
for innovation and entrepreneurship and businesses to move 
forward.
    Now, am I correct that the stock market currently is at or 
near record highs? Is that a fair, factually accurate statement 
that you are qualified to answer?
    Mr. Kovacs. It is certainly doing better than it was 
several years ago.
    Mr. Jeffries. And am I correct that corporate profits are 
at or near record highs presently?
    Mr. Kovacs. Actually, you would have to ask our economist. 
I think he would be the better person.
    Mr. Jeffries. Okay, I think that is a generally accepted 
fact.
    Am I correct that the productivity of the American worker 
is at an all-time high or certainly has increased dramatically 
over the last several years, meaning that companies are in a 
better position to make more using the same or less employees? 
Is that a factually accurate statement?
    Mr. Kovacs. Well, I think productivity has increased for 
centuries based on technology, new materials, everything.
    Mr. Jeffries. Okay. So I think that the doom and gloom 
scenario, as has been painted, related to the economy and the 
Obama recovery would do well to take into account some of the 
objectively understood facts as it relates to who actually has 
benefitted during this recovery, particularly in the context of 
this discussion where we all are legitimately concerned about 
the success of American companies moving forward. But that 
success and whatever regulatory obstacles exist I think should 
be interpreted in the context of the fact that corporate 
America is doing pretty well right now, but it is the middle 
class, working families, poor folks, seniors who have struggled 
in the context of this recovery.
    Mr. Kovacs. But, Congressman, the jobs that would have been 
created had these projects gone forward would have gone to the 
middle class. I mean, these would have been high paying 
construction jobs. And I think the purpose for us doing Project 
No Project and being so actively involved in the permitting 
issue is it will create jobs. The U.S. Chamber wants to create 
as many jobs in this country as we can possibly create. And our 
position is not that jobs have not been created. Our position 
is we can create a lot more and we can take the people who are 
either unemployed or have part-time jobs and put them in full-
time jobs through these projects. And I think all of us have 
agreed that these projects need to go forward in a more 
expeditious way, and if they do, they will create jobs. And 
that is what we should be working for.
    Mr. Jeffries. I think we can all find the point of 
agreement as to the end of creating jobs for those that we 
represent here in America. The best means to do so--we will 
have to continue that debate.
    But I thank you, Mr. Chairman, and I yield back.
    Mr. Marino [presiding]. Thank you, Mr. Jeffries.
    Distinguished Congressman, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I think that we all would agree that a sustainable 
environment is a key to economic prosperity. Do you all agree? 
Is there anyone who does not agree?
    [Nonverbal response.]
    Mr. Johnson. So a sustainable environment--I mean, we are 
talking about air quality, water quality, things such as that. 
Those things are important to economic prosperity. Are they 
not? Do you all agree?
    [Nonverbal response.]
    Mr. Johnson. And so now, when we have scientists who are 
studying the impact of man's activities on our environment with 
an eye toward determining whether or not those activities are 
sustainable or not, should we not pay any attention to those 
kinds of studies? Is there anyone who would agree that we 
should just discard those studies?
    [Nonverbal response.]
    Mr. Marino. If the gentleman would yield for a moment, I 
want to go on record that I absolutely agree with you that we 
should make certain that our environment is protected, and I 
think I have reiterated that numerous times. So I do not think 
you are going to get anyone here to disagree with you.
    Mr. Johnson. Well, I do not know, though. I do want to just 
make sure that I can get an affirmation by a show of hands.
    [Show of hands.]
    Mr. Bachus. Mr. Kovacs too, all right. Thank you, my 
colleagues on the other side.
    And so when 95 percent or so of scientists agree that man's 
activities contribute to the diminution of our environment from 
a quality perspective, I mean, we should pay attention to that. 
And so when 95 percent of them are saying that man creates 
the--or mankind--man's activities contribute to global warming 
and global warming is a real concern, then we should, as a 
society, pay close attention to that.
    Now, Mr. Kovacs, I know that you have taken positions in 
opposition to the scientific research that has been done. Do 
you have any scientific reason for taking those kinds of 
positions on this issue of global warming?
    Mr. Kovacs. That is not a correct statement, sir.
    Mr. Johnson. What is not a correct statement? That you have 
taken----
    Mr. Kovacs. That I have taken positions in opposition. The 
U.S. Chamber has consistently supported finding a way in which 
to reduce greenhouse gases without destroying the economy.
    Mr. Johnson. Will the Chamber of Commerce consider not 
blocking alternative forms of energy creation such as wind and 
solar?
    Mr. Kovacs. Well, Congressman, I thought I answered this 
the last time. But we have for--I do not know--15-16 years 
before even a lot of the renewable fuels became popular with 
the environmental community, we supported renewable fuels. We 
supported energy efficiency. We supported energy savings 
performance contracts. We are sitting here next to Cape Wind. I 
do not know. When was the first time we supported your project? 
10 years ago?
    Mr. Duffy. Probably 10 years.
    Mr. Kovacs. So, I mean, I think on that ground I just beg 
to differ with you. I think you are just wrong.
    Mr. Johnson. Well, I mean, I am looking back as early as 
2001 when you appeared on CNN on behalf of the Chamber and 
claimed that there is no link between greenhouse gases and 
human activity. I mean, that is just a fact.
    But then even up to 2009, I see that you challenged an EPA 
decision about clean air and you pledged to put the science of 
climate change on trial kind of like a Scopes Monkey Trial of 
the 21st century. There was a comment that was attributed to 
you in 2009.
    Mr. Bachus. Not the part about the Scopes Monkey Trial.
    Mr. Johnson. Oh, okay.
    Mr. Bachus. That was your comment. Right?
    Mr. Johnson. And even today the Chamber continues to take 
or make exaggerated claims that regulating greenhouse gases 
would eliminate jobs and strangle the economy. And you are 
spending millions of dollars in a campaign against meaningful 
climate change legislation. And so I do not know how you can 
square what your activities have been over a period of at least 
12 years----
    Mr. Kovacs. Well, I can honestly tell you that if funds had 
been spent in opposition to climate change, whether they be 
advertising or anything else, it would have come out of my 
division. And I can tell you for a fact there has not been any 
money put up by my division to oppose climate change 
legislation.
    Mr. Johnson. That is a very technical and artful way of 
escaping responsibility, I think, for the Chamber's efforts----
    Mr. Kovacs. No. This is, I guess, where you and I just 
really have a fundamental disagreement. If you go back through 
the pages of what the Chamber has supported, we have promoted 
technology. We have promoted energy efficiency. I mean, when 
President Obama decided to have a major event on energy 
efficiency contracts and it was going to be a major event, he 
was going to issue an executive order, he was going to have 
President Clinton there with him, who was the only CEO that he 
asked to appear with him? It was Tom Donohue, and they all 
promoted the energy efficient savings contracts. So certainly 
if we had the positions that you are espousing, I do not think 
that President Obama would have invited our CEO to that event.
    So I think we are very proud of all of the efforts. Go ask 
Congressman Welch. We have been with him in the beginning on 
his energy efficiency bill. We have been there on all the 
energy efficiency bills. I think there is probably one we did 
not, but virtually on all of them. So I think we have been 
pretty consistent.
    We may disagree with you on some of the bills. As I said to 
you last time, we did disagree with Waxman-Markey. We thought 
that the regulatory structure was so oppressive that it would 
literally sink the economy, and the economy was already bad at 
that time. But we have always left ourselves open to coming to 
some kind of a position where we can balance the economy and 
the environment and make sure that we do not sink the economy 
through regulations.
    Mr. Johnson. Well, do you think that regulations are due in 
such an important area such as the environment? Environmental 
regulations are basically what the Chamber has traditionally 
attacked.
    Mr. Kovacs. We have historically said that this Nation 
needs reasonable regulation. We have never argued with that. If 
you did not have regulation, we would have to probably create 
it just to have business practices. The question is between 
1946 and today we worked on a few small regulations. Today we 
are on regulations that are massive costing tens of billions of 
dollars, and I think the concern there is let's understand what 
it is we are doing because it does have an effect on jobs and 
we just need to appreciate that.
    Mr. Johnson. Well, you seem to be a very reasonable person, 
Mr. Kovacs, and I look forward to working with you in good 
faith to try to do something good for our environment and, at 
the same time, promote prosperity for the businesses.
    Mr. Kovacs. We are there on that one.
    Mr. Johnson. And I thank you.
    Mr. Marino. Thank you, Mr. Johnson.
    Just for the record, I want to refer to a portion of Mr. 
Kovacs' report, and I quote. One of the most surprising 
findings is that it has been just as difficult to build a wind 
farm in the U.S. as it is to build a coal-fired power plant. In 
fact, over 40 percent of the challenged projects identified in 
our study were renewable energy projects. And we did ask some 
renewable people to be here and they chose not to be here.
    For my good friend, Mr. Johnson, where I live, it is not 
only humans that get blamed for the gases. It is our cows as 
well.
    The Chair recognizes the Chairman.
    Mr. Bachus. Mr. Ivanoff, I just would like to make one 
closing comment. You were talking about the jobs that are 
created, not just building the road, the project. I went back 
and what I was reminded of recently--they came out with the 
truck sales of General Motors and Ford and Dodge. And the 
largest consumer was the construction industry, and not all of 
them in road construction. But I looked up where these trucks 
are made, the largest customer for these factories. In 
Dearborn, Michigan, that is the F150 and a smaller factory in 
Kansas City. They are all made there. How about the Avalanche 
and the Silverado? Flint, Michigan; Fort Wayne, Indiana; Grand 
Rapids, Michigan. The Ram, Warren, Michigan. So a lot of jobs 
in a lot of--Fort Wayne, Indiana; Dearborn, Michigan; 
Zanesville, Ohio; Warren, Michigan. Every one of those is 
probably a high unemployment area. A lot of people. They are 
there. They want to work hard. They are very good paying jobs.
    So I commend the gentleman from Pennsylvania for bringing 
this.
    I close by saying everybody has commented. The studies are 
going to be done. They are just going to be done quicker. Mr. 
Duffy, there are people that waited 12 years for that job. A 
lot of them did not have 12 years.
    So I yield back the balance of my time.
    Mr. Marino. Votes are going to be called shortly. But, Mr. 
Johnson, do you have anything further that you would like to 
discuss?
    Mr. Johnson. Yes, I do, Mr. Chairman, and I do appreciate 
it.
    I know that in your testimony, Mr. Duffy, in the paragraph 
numbered 2 in the first paragraph thereunder, the last 
sentence, you are talking about the Federal regulatory process 
and you state in that last sentence: ``Indeed, the Chairman of 
our opponents' group recently admitted in the press that his 
strategy is one of 'delay, delay, delay.''' And you point that 
out in your comments. Is that correct?
    Mr. Duffy. That is correct, Mr. Johnson. That is the 
chairman of our organized opponents' group made that statement 
recently in CommonWealth magazine.
    Mr. Johnson. And your chairman is in fact Bill Koch. Is 
that correct?
    Mr. Duffy. That is correct. That is the statement of Mr. 
Koch.
    Mr. Johnson. But actually in that statement that you pulled 
from Mr. Koch stated that he is--he says he is pursuing two 
Cape Wind strategies. ``One is to just delay, delay, delay, 
which we are doing and hopefully we can win some of these 
bureaucrats over. End quote. He says, quote, the other way is 
to elect politicians who understand how foolhardy alternative 
energy is.''
    So Mr. Bill Koch we know is just a strong and unstinting 
opponent of alternative energy, and I know that his activities 
in terms of electing persons who are of that same mindset is an 
activity that the U.S. Chamber of Commerce has participated in 
as well.
    And I just want to point--I do want to place a copy of Mr. 
Koch's statement, which is in an article which is entitled 
``The Man Behind Cape Wind and the Project's Biggest Opponent 
Have Been Negotiating Privately for More Than a Decade.'' It is 
by Bruce Mohl, M-o-h-l. I would like to submit this for the 
record without objection.
    Mr. Marino. Without objection.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Bachus. Well, let me raise an objection which I 
withdraw.
    Mr. Marino. I take back that without objection.
    Mr. Bachus. I would like the record to show that 
Congressman Hank Johnson has joined with the Koch brothers in 
resisting this alternative energy project. So I thought you all 
were adversaries, but you are obviously doing what you consider 
the devil's work here.
    Mr. Johnson. Yes, I mean, there is a place for political 
activity, and there is a place for good public policy that 
promotes the general welfare.
    Mr. Bachus. So you are commending the Koch brothers.
    Mr. Johnson. Well, there is certainly no intent on my part 
to do that.
    Mr. Bachus. It sure sounded like that is what you----
    Mr. Johnson. No, no, no, no, not at all.
    Mr. Slesinger, you are grabbing for the mike. I want to 
give you an opportunity.
    Mr. Slesinger. I just think that, again, this issue with 
Cape Wind again comes down to not so much it was NEPA but just 
a very well financed, organized opposition for whatever reason 
that is the real cause for most of these delays, not NEPA.
    Mr. Bachus. Mr. Duffy was wanting to respond.
    Mr. Marino. Yes. I wanted to give each one of the panel 
members 15-30 seconds. If you want to wrap something up, please 
do.
    Mr. Bachus. Maybe they would like to respond to this 
question and then you could give them time.
    Mr. Marino. Sure, go ahead.
    Mr. Duffy. Just in response, obviously this is a well-
funded opposition, but something is wrong with the system if a 
well-funded opponent can misuse the NEPA system to drag it out 
for 10 years. As we mentioned before, the original 40 questions 
estimated a 12-month timeline. We are at 10 years. The CEQ regs 
today say the text of an EIS shall normally be less than 150 
pages or proposals of unusual scope shall normally be less than 
30 pages. We, with the Department of Justice and the NRDC, are 
going to file a brief tomorrow defending the sufficiency of a 
5,000-page environmental impact statement. So I think our point 
is something has gone amiss from the original congressional 
intent that is reflected in the statute and the original 
adoptions of guidance from the CEQ to where we are today.
    And we just think Massachusetts, with its energy facilities 
siting statute on a bipartisan basis, has a solution with a 
strong track record which is worthy of consideration. It 
imposes a 12-month time limit and an expedited appeal directly 
to the State's highest court to move projects forward that are 
worthy of merit.
    Mr. Johnson. Well, if I may, Mr. Chairman.
    Mr. Marino. Quickly, please.
    Mr. Johnson. It is indeed clear that something is wrong 
with our democracy when a couple of deep-pocketed individuals 
can stall action for this long.
    Mr. Marino. Mr. Slesinger, would you like 15 seconds?
    Mr. Slesinger. I would just note that, again, Cape Wind was 
a unique case. Because of the very strong and well-financed 
opposition, it required to, quote, paper the record, which is 
probably why the NEPA documents are as long as they are and why 
we think they are very complete. And that is why we are joining 
Mr. Duffy's company in supporting that EIS as being sufficient.
    Mr. Marino. Thank you.
    Mr. Ivanoff?
    Mr. Ivanoff. Thank you very much. First of all, again, 
thank you very much for giving us an opportunity to speak and 
come before you.
    Mr. Marino. It is our pleasure.
    Mr. Ivanoff. I think, Mr. Marino, you have introduced a 
very interesting piece of legislation. I wish you well with it. 
I think it probably needs a little tweaking, as you heard from 
Mr. Slesinger and others. But I think what it brings is it is a 
job creation bill and many of these projects that we are 
talking about--they cannot be outsourced. You cannot pave a 
grade--do grade paving of a roadway from across the pond. It 
has got to be done here by our people.
    Mr. Marino. Thank you, sir.
    Mr. Kovacs?
    Mr. Kovacs. Very quickly. I think this is one of the more 
constructive hearings I have been at. I saw the most agreement 
I think I have seen in this Committee in several years, and I 
am thrilled.
    Mr. Marino. We are trying.
    Mr. Kovacs. Really quickly. You know, in the conference 
report when NEPA was first put out in 1970, they anticipated a 
1-year time frame for getting these projects done, and they 
anticipated at that time the President would do an executive 
order to make sure it stayed on 1 year.
    And also, just because it has been put up several times by 
Mr. Slesinger, on Project No Project, it really depends what 
projects you are looking for. Once you get into the Federal 
stage of the projects, it is NEPA. And if you are a wind 
project, a solar project, a water project, NEPA is what is 
going to affect you. So you have to look at it. But the local 
action starts in the beginning, but believe me, the inability 
to come to a sufficiency of a NEPA review never ends.
    Mr. Marino. And just for the benefit of my dear friend, Mr. 
Johnson, I am out in the country. I live on a mountain. I heat 
my house with propane gas. I live in the middle, dead smack in 
the middle of Marcellus gas, which is booming our economy. But 
be that as it may, I am looking in to putting a windmill on my 
property because I see that energy shooting by every day that I 
could utilize.
    So with that, ladies and gentlemen----
    Mr. Johnson. Well, if I might, just one more comment.
    I always knew that my friend from Pennsylvania was a 
flaming progressive. [Laughter.]
    Mr. Marino. That was my deceptive intent.
    Mr. Bachus. Hank, let's get behind this bill and stop the 
Koch brothers from being able to delay a project.
    Mr. Johnson. To my friend from Alabama, I admire your work 
and will consider your guidance.
    Mr. Marino. Thank you.
    This concludes today's hearing. I want to thank all of our 
witnesses for attending. I want to thank also our guests for 
being here as well, and if you have any input, let our staff 
know. We would appreciate it.
    I want to thank my colleagues and our staff members. I 
think we were very productive here today.
    And without objection, all Members will have 5 legislative 
days to submit additional written questions for the witnesses 
or additional materials for the record.
    This hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Response to Questions for the Record from William K. Kovacs, Senior 
  Vice President, Environment, Technology & Regulatory Affairs, U.S. 
                          Chamber of Commerce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Response to Questions for the Record from Dennis J. Duffy, 
         Vice President and Counsel, Cape Wind Associates, LLC


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Response to Questions for the Record from Scott Slesinger, 
        Legislative Director, Natural Resources Defense Council


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
